September 29, 2000

PATRICK R. DONAHOE
SENIOR VICE PRESIDENT, HUMAN RESOURCES

YVONNE D. MAGUIRE
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report - Evaluation of Postal Service Criteria for
         Workplace Violence Prevention and Response Programs
         (Report Number LB-AR-00-003)

This report presents the results of our evaluation of Postal Service criteria for workplace
violence prevention and response programs (Project Number 99EA007ER005). This
audit report is part of a series for an ongoing review of workplace violence prevention
efforts within the Postal Service.

The audit revealed that Postal Service violence prevention and response criteria are
adequate to assist management in the implementation of programs, to reduce the risk of
violence in the workplace and to effectively respond to work disruptions due to incidents
of violence in the workplace. However, we noted opportunities to enhance the program.
Specifically, program guidance should be revised to mandate training for craft
employees. In addition, we believe the Postal Service should explore the need for
recurring workplace violence awareness training for all employees. Finally, the Postal
Service needs to include language in the violence prevention and response program
criteria to ensure full compliance with the criteria. Management generally agreed with
the reports findings and recommendations and provided several suggestions.
Management’s comments and our evaluation of these comments are included in the
report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joyce Hansen,
director, Labor Management-Rosslyn, or me at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment
cc: Anthony J. Vegliante
    John R. Gunnels
Evaluation of Postal Service Criteria for Workplace                 LB-AR-00-003
 Violence Prevention and Response Programs


                                     TABLE OF CONTENTS

                                                                        Page 


Executive Summary                                                          i


Part I 


Introduction                                                              1

Background                                                                1

Objectives, Scope, and Methodology                                        1


Part II

Audit Results                                                             4


  Important Elements of a Workplace Violence Prevention Program           4

    Zero Tolerance Policy Statement                                       5

    Organizational Strategies                                             6

    Threat Assessment Team Purpose, Goals, Tasks, and Composition         6

    Threat Assessment Team Process and Performance Measures               7

    Employee Education and Communication                                  7


  Crisis Management Plan Criteria                                         8


  Mandatory Language                                                      9


  Recommendations                                                          9

  Summary of Management’s Comments                                         9

  Evaluation of Management’s Comments                                     10 


Appendix A. Postal Service Documents                                      11 

Appendix B. Federal Government Documents                                  12 

Appendix C. Private Sector Documents                                      13 

Appendix D. Management’s Comments                                         15 

Evaluation of Postal Service Criteria for Workplace                                LB-AR-00-003
 Violence Prevention and Response Programs


                                    EXECUTIVE SUMMARY
 Introduction                    This audit report is one of a series from an ongoing review
                                 of workplace violence prevention efforts within the Postal
                                 Service. Our overall objective was to determine whether the
                                 Postal Service workplace violence prevention and response
                                 program criteria provide sufficient guidance to managers to
                                 assist them in the implementation of programs to reduce the
                                 risk of violence in the workplace, and to effectively respond
                                 to work disruptions due to incidents of violence in the
                                 workplace.

 Results in Brief                Our audit revealed that the Postal Service workplace
                                 violence prevention and response criteria are adequate to
                                 assist management in the implementation of programs to
                                 reduce the risk of violence in the workplace, and to
                                 effectively respond to work disruptions due to incidents of
                                 violence in the workplace. Some experts considered the
                                 Postal Service program to be a model for corporations and
                                 organizations developing similar programs.

                                 However, we noted opportunities to enhance the program.
                                 Specifically, the Postal Service should revise the program
                                 guidance to mandate training for all employees, including
                                 craft employees. In addition, the Postal Service should
                                 explore the need for recurring workplace violence
                                 awareness training for all employees. Finally, the Postal
                                 Service should change the language in the guidance to
                                 ensure full compliance with all provisions of the violence
                                 prevention and response programs.

 Summary of                      We recommend that the senior vice president for Human
 Recommendations                 Resources revise violence prevention and response
                                 program criteria to:

                                 1. Mandate training for all employees, including craft
                                    employees.

                                 2. Require violence awareness training on a recurring
                                    basis, preferably annually, for all employees.

                                 3. Include language in the violence prevention and
                                    response program criteria to ensure full compliance with
                                    the criteria.



                                                      i
Evaluation of Postal Service Criteria for Workplace                                   LB-AR-00-003
 Violence Prevention and Response Programs


 Summary of                      Management was in general agreement with the report’s
 Management’s                    findings and recommendations and stated that refresher
 Comments                        training should be required and clarification of critical
                                 portions of the guide was needed to ensure that no one
                                 viewed critical programs as optional.

                                 We have summarized management's comments in the
                                 report and included the full text in Appendix D of this report.

 Evaluation of                   Management’s comments are generally responsive to our
 Management’s                    recommendations and the actions, taken and planned,
 Comments                        should correct the conditions identified in this report.
                                 However, we would like to reiterate that full compliance with
                                 the entire guide is critical to an effective violence prevention
                                 program. Management also provided additional background
                                 information suggestions regarding some sections of the
                                 report. This information is included is included with their
                                 verbatim comments.




                                                      ii
Evaluation of Postal Service Criteria for Workplace                                                     LB-AR-00-003
 Violence Prevention and Response Programs


                                              INTRODUCTION
    Background                      In November 1991, the shooting at the Royal Oak,
                                    Michigan, Post Office prompted the Postal Service to
                                    address the issue of workplace violence. The Postal
                                    Service embraced the concept that a viable workplace
                                    violence prevention program is the first step in helping to
                                    ensure a violence free workplace. From February 1992 until
                                    May 1997, the Postal Service took several violence
                                    prevention initiatives, including the signing of the Joint
                                    Statement on Violence and Behavior in the Workplace,
                                    creating and developing the Threat Assessment Team
                                    Guide, Publication 108, and the Crisis Management Plan for
                                    Incidents of Violence in the Workplace, Publication 107.1
                                    Together, the joint statement and publications represent the
                                    Postal Service’s violence prevention program.

                                    These initiatives were taken to provide guidance to
                                    managers in responding to and assessing the seriousness
                                    of violent and potentially violent situations in the workplace.
                                    Specifically, the Joint Statement on Violence and Behavior
                                    in the Workplace constitutes a pledge by Postal Service
                                    management, nationally elected officers of the management
                                    associations, and the various employee unions, that
                                    employees at all levels will be treated with dignity, respect,
                                    and fairness. The Threat Assessment Team Guide
                                    addresses the workplace violence prevention strategies and
                                    focuses on the preparation of the zero tolerance policy
                                    statement and the establishment of the threat assessment
                                    team and process. The Crisis Management Plan for
                                    Incidents of Violence in the Workplace provides guidance
                                    on how to respond to and manage work disruptions due to
                                    incidents of workplace violence.

    Objectives, Scope,              Our objectives were to determine if the Postal Service
    and Methodology                 workplace violence prevention and response criteria:

                                    1. Provide adequate guidance to assist management in the
                                       implementation of a violence prevention program.

                                    2. Provide adequate guidance to assist management in the
                                       implementation of a violence response program.
1
 The Postal Service's manager of Employee and Organizational Assistance Services authorized a team of postal
specialists, with the assistance of an outside expert in workplace violence prevention, to create a model for a threat
assessment program and a crisis management plan.



                                                           1
Evaluation of Postal Service Criteria for Workplace                                 LB-AR-00-003
 Violence Prevention and Response Programs



                                 To establish benchmarks for what is adequate guidance for
                                 the implementation of workplace violence prevention and
                                 response programs, we conducted a comprehensive search
                                 of literature available on the Internet and from other sources
                                 related to criteria for workplace violence prevention. From
                                 March through September 1999, we identified, reviewed,
                                 and analyzed a total of 30 documents. Six of these
                                 documents were obtained from the Postal Service, and
                                 seven from other federal government agencies, including
                                 the U.S. Office of Personnel Management. The remaining
                                 17 documents were obtained from the private sector.
                                 Appendices A, B, and C provide a detailed list of the specific
                                 documents reviewed, from the Postal Service, other federal
                                 government agencies, and the private sector respectively.

                                 The U.S. Office of Personnel Management is the federal
                                 government’s human resources agency which supports
                                 government program managers in their personnel
                                 management responsibilities. We considered the agency’s
                                 publication, Dealing with Workplace Violence: A Guide for
                                 Agency Planners, to be the most comprehensive guide
                                 available to federal agencies on this subject.

                                 Using the information gathered, we identified the following
                                 five elements that appear to be the most important elements
                                 of a viable workplace violence prevention program:

                                 1. A zero tolerance policy.

                                 2. Organizational strategies for reducing workplace
                                    violence.

                                 3. A threat assessment team and a guide which outlines
                                    the team’s composition, purpose, goals, tasks, process,
                                    and performance measures.

                                 4. Employee workplace violence prevention education.

                                 5. A crisis management preparedness plan, including crisis
                                    management training through the completion of post-
                                    crisis management evaluation.




                                                      2
Evaluation of Postal Service Criteria for Workplace                               LB-AR-00-003
 Violence Prevention and Response Programs


                                 We then identified the following three documents as the
                                 Postal Service’s primary guidance for developing workplace
                                 violence prevention and response programs and determined
                                 whether this guidance contained the elements discussed
                                 above:

                                 •	 Threat Assessment Team Guide (Publication 108).

                                 •	 Crisis Management Plan for Incidents of Violence in the
                                    Workplace (Publication 107).

                                 •	 Joint Statement On Violence and Behavior in the
                                    Workplace.

                                 We also attended two symposiums which addressed
                                 violence prevention programs: (1) the Symposium on
                                 Employee and Labor Relations held in Hershey,
                                 Pennsylvania, in March 1999 and (2) the National
                                 Symposium on Workplace Violence held in Washington,
                                 D.C. in April 1999. Expert speakers who provided
                                 information at the second symposium included two federal
                                 employees with whom we interviewed to help identify
                                 important elements of a workplace violence prevention
                                 program. The first was the coordinator for the Postal
                                 Service Workplace Violence Prevention Program, and the
                                 second was an expert on workplace violence and threat
                                 assessment from the Federal Bureau of Investigation’s
                                 National Center for the Analysis of Violent Crime.

                                 This audit was conducted from March 1999 through
                                 September 2000 in accordance with generally accepted
                                 government auditing standards, and included such tests of
                                 internal controls as we reconsidered necessary under the
                                 circumstances. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.




                                                      3
Evaluation of Postal Service Criteria for Workplace                                LB-AR-00-003
 Violence Prevention and Response Programs


                                         AUDIT RESULTS
                                 Our audit revealed that the Postal Service violence
                                 prevention and response criteria is adequate to assist
                                 management in the implementation of programs to reduce
                                 the risk of violence in the workplace and to effectively
                                 respond to work disruptions due to incidents of violence in
                                 the workplace. In fact, recent articles in human resources
                                 literature referred to the Postal Service program as a model
                                 for corporations and organizations developing similar
                                 programs.

                                 However, we believe that the program guidance should be
                                 revised to mandate training for craft employees. In addition,
                                 the Postal Service should explore the need for recurring
                                 workplace violence awareness training for all employees.
                                 Finally, we believe the Postal Service should revise the
                                 language in the guidance to ensure mandatory compliance.

 Important Elements              The Occupational Safety and Health Administration has
 of a Workplace                  cited employers with violence-prone workplaces under the
 Violence Prevention             Occupational Safety and Health Act’s General Duty Clause,
 Program                         which requires employers to provide a safe workplace for all
                                 employees. The U.S. Office of Personnel Management,
                                 through its Interagency Working Group on Violence in the
                                 Workplace, published Dealing with Workplace Violence: A
                                 Guide for Agency Planners, in February 1998 for use by
                                 federal agencies. Although it is not mandatory that
                                 agencies use this document, it is the only federal criteria
                                 available.

                                 Our analysis of the Office of Personnel Management’s guide
                                 and information collected from other federal agencies, the
                                 private sector, and the Postal Service indicated that there
                                 are five primary elements that should be present in an
                                 effective workplace violence prevention program. These
                                 elements are as follows:

                                 1. A zero tolerance policy.

                                 2. Organizational strategies for reducing workplace
                                    violence.




                                                      4
Evaluation of Postal Service Criteria for Workplace                                                  LB-AR-00-003
 Violence Prevention and Response Programs


                                    3.	 A threat assessment team and a guide which outlines
                                        the team’s purpose, goals, tasks, composition
                                        processes, and performance measures.

                                    4. Employee violence prevention education on a recurring
                                       basis.

                                    5. A crisis management preparedness plan, which includes
                                       a number of activities from crisis management training
                                       through the completion of a post-crisis management
                                       evaluation.

    Zero Tolerance Policy	          We found that the Postal Service zero tolerance policy
    Statement	                      statement provides sufficient explanation and guidance to
                                    management and employees on how the Postal Service will
                                    respond to, and manage threats, assaults, and other
                                    inappropriate behavior in the workplace. Specifically, the
                                    Joint Statement on Violence and Behavior in the Workplace
                                    states that “there is no excuse for and will be no tolerance of
                                    violence or any threats of violence by anyone at any level of
                                    the Postal Service; and…there is no excuse for and will be
                                    no tolerance of harassment, intimidation, threats, or bullying
                                    by anyone…Those whose unacceptable behavior continues
                                    will be removed from their positions.” The Postal Service
                                    Threat Assessment Team Guide restates the policy and
                                    provides examples of zero tolerance policy statements that
                                    management can use.

                                    The Office of Personnel Management guide, Dealing with
                                    Workplace Violence: A Guide for Agency Planners,
                                    considers it a disadvantage for an agency to use the term
                                    “zero tolerance” and to define terms such as violence,
                                    threats, and harassment. The guide states that these
                                    definitions could discourage employees from reporting
                                    incidents that they do not believe fall within the definition.2
                                    We believe, however, the Postal Service’s use of the term
                                    “zero tolerance” and definitions are important in helping
                                    employees understand when threats, assaults, or other acts
                                    of violence occur.




2
    The Office of Personnel Management’s sample policy statement contains language similar to zero tolerance.



                                                          5
Evaluation of Postal Service Criteria for Workplace                                                           LB-AR-00-003
 Violence Prevention and Response Programs



    Organizational                    We found that the organizational strategies for reducing
    Strategies                        violence3 outlined in the Postal Service Threat Assessment
                                      Team Guide include many of the same strategies
                                      recommended and used by other federal agencies and
                                      private organizations. The majority of the non-postal
                                      documents we reviewed contained detailed steps on
                                      implementing some or all of the six Postal Service
                                      prevention strategies to reduce workplace violence.

                                      In comparing the non-postal documents with the six Postal
                                      Service prevention strategies, we determined that other
                                      federal agencies, including the Office of Personnel
                                      Management, as well as private organizations, provided
                                      similar guidance for their strategies. For example, we found
                                      that strategies used by non-postal organizations are similar
                                      to the Postal Service strategy designed to create and
                                      maintain a workplace environment perceived to be fair and
                                      free from unlawful and inappropriate behavior. In addition,
                                      non-postal documents indicated that other organizations
                                      employed a variety of mechanisms allowing quick and fair
                                      resolution of labor-management disputes. Some examples
                                      include formal complaint procedures, open communications,
                                      and fair treatment for all employees in issuing discipline.

    Threat Assessment                 The Postal Service Threat Assessment Team Guide
    Team Purpose, Goals,              provides sufficient guidance to assist management in
    Tasks, and                        developing and implementing a successful threat
    Composition                       assessment team. The guide outlines four components of a
                                      threat assessment team: purpose, goals, tasks, and team
                                      composition.

                                      Our review of the non-postal documents indicated that the
                                      majority of documents identified some or all four of these
                                      components of a threat assessment team. For example, the
                                      Office of Personnel Management guide identifies purposes
                                      and strategies for assessing danger and preparing action
                                      plans to resolve violent incidents.



3
  The six strategies are (1) hiring the right people for the right job in the first place, (2) ensuring security of people and
property, (3) communicating and enforcing zero tolerance policies consistently, (4) creating a working environment
and culture perceived to be fair and free from inappropriate behavior, (5) providing support to employees in dealing
with problems of work and daily living, and (6) handling the separation process professionally, including assessment
for potential violence.



                                                              6
Evaluation of Postal Service Criteria for Workplace                                                      LB-AR-00-003
 Violence Prevention and Response Programs



                                    The Threat Assessment Team Guide provides more detail
                                    than most other documents we reviewed, in the form of a
                                    checklist for threats and assaults, a list of risk indicators,
                                    and potential contributing factors to violent incidents such as
                                    environmental factors that could have an impact on violence
                                    in the workplace.4

    Threat Assessment    The Postal Service Threat Assessment Team Guide
    Team Process and     provides sufficient guidance in the areas of threat
    Performance Measures assessment team process and performance measures. Our
                         review of the non-postal documents revealed that few of
                         those documents addressed both elements.

                                    In general, we found that the Postal Service provides
                                    managers with a more comprehensive process than the
                                    non-postal documents to establish the team’s assignments
                                    and responsibilities.5 For example, the Postal Service
                                    threat assessment team process consists of quarterly
                                    meetings, maintaining minutes, responding to incidents,
                                    managing cases, and monitoring troubled work sites.

                                    Concerning performance measurement, our review
                                    disclosed that the Postal Service provides a list of
                                    suggested resources for measuring the team’s
                                    effectiveness. Few of the non-postal documents addressed
                                    similar performance measures.

    Employee Education              With two exceptions, the Postal Service provides sufficient
    and Communication               guidance on employee education and communication
                                    regarding workplace violence prevention as compared to
                                    non-postal organizations. The Postal Service considers
                                    education and communication as vital elements of its
                                    workplace violence prevention program. Most of the non-
                                    postal documents we reviewed also identified employee
                                    education and communication as important elements of
                                    their program.




4
  Environmental factors in the workplace include problems in labor-management relations as indicated by grievances,
Equal Employment Opportunity complaints, and perceptions of preferential treatment or unfair discipline.
5
  The Postal Service guidance provides eight steps for addressing violent or potentially violent incidents or situations:
(1) notifying appropriate people, (2) making assignments, (3) collecting information, (4) making a background inquiry,
(5) reviewing and analyzing the case, (6) making a final assessment, (7) developing a risk abatement plan, and (8)
following up.



                                                           7
Evaluation of Postal Service Criteria for Workplace                                                 LB-AR-00-003
 Violence Prevention and Response Programs


                                   The Postal Service Threat Assessment Team Guide
                                   mandates that supervisors and managers receive
                                   eight hours of workplace violence awareness training and
                                   four hours of follow up training. The guide, however, does
                                   not mandate this training for craft employees. In an earlier
                                   Office of Inspector General report, postal management
                                   agreed that mandatory attendance at violence awareness
                                   training for all employees was necessary.6 We believe that
                                   an addendum to the guide should be issued so that district
                                   threat assessment teams are aware of the requirement.

                                   In addition, we believe that violence awareness training
                                   should be provided to all employees on a recurring basis.
                                   We found that many other organizations recommended that
                                   training be provided on a regular basis. For example,
                                   according to a Federal Bureau of Investigation expert,
                                   training should be provided on a regular basis to
                                   employees, with simulation exercises conducted at least
                                   quarterly.

                                   The Postal Service criteria lists a variety of sources that field
                                   locations can use to communicate information to its
                                   employees, including newsletters, safety talks, wall posters,
                                   direct mailings, and new employee orientation. In our
                                   comparison, we found that non-postal organizations did not
                                   provide as many methods of communication to inform
                                   employees of respective workplace violence prevention
                                   programs.

    Crisis Management              We believe that the Postal Service exceeded the non-postal
    Plan Criteria                  organizations we reviewed in providing guidance to manage
                                   work disruptions due to incidents of workplace violence.
                                   The Postal Service Crisis Management Plan for Incidents of
                                   Violence in the Workplace provides a model of a plan that
                                   outlines the minimum essential procedures to be followed in
                                   the event of a violent incident. The plan is designed to
                                   provide advance preparation for managing violent incidents
                                   at the crisis and post-crisis stage.

                                   In our comparison with criteria used by non-postal
                                   organizations, we found that Postal Service requirements
                                   for establishing a crisis management plan contained more

6
 U.S. Postal Service, Office of Inspector General Audit Report, Violence Prevention Policies and Procedures,
Milwaukee District Compliance, September 30, 1998 (Report # LM-AR-98-002).



                                                         8
Evaluation of Postal Service Criteria for Workplace                                  LB-AR-00-003
 Violence Prevention and Response Programs


                                 substantive information than criteria applied in non-postal
                                 organizations. Only about half of the documents we
                                 reviewed provided principles and limited steps for
                                 conducting post-crisis evaluation and management following
                                 incidents of workplace violence. In contrast, the Postal
                                 Service crisis management plan provides various checklists
                                 detailing specific duties and responsibilities of key personnel
                                 for both crisis management and post-crisis evaluation.

 Mandatory Language              We found that some language in the Postal Service violence
                                 prevention and response criteria needs to be revised to
                                 remove terms such as “should be” and replace them with
                                 “shall” or “must.” Words such as “should” tend to change
                                 the overall intent of the requirements from mandatory
                                 compliance to optional compliance.

 Recommendations                 We recommend that the senior vice president for Human
                                 Resources revise violence prevention and response
                                 program criteria to:

                                 1. Mandate training for all employees, including craft
                                    employees.

                                 2. Require violence awareness training on a recurring
                                    basis, preferably annually (like ethics and sexual
                                    harassment training), for all employees.

                                 3. Include language in the violence prevention and
                                    response program criteria to ensure full compliance with
                                    the criteria.

 Summary of                      Management was in general agreement with the report’s
 Management’s                    findings and recommendations. Management stated that
 Comments                        refresher training should be required and noted that such a
                                 requirement would differ between managerial and craft
                                 employees. Management also stated that they would like to
                                 consider the types of training prior to issuing a mandate to
                                 the field.

                                 In addition, management stated clarification was required to
                                 ensure that no one would view critical programs as optional.
                                 Management further stated that they understood the
                                 recommendation to require clarifying the language in critical
                                 portions of the guide not necessarily just by changing the
                                 word ‘should.’”


                                                      9
Evaluation of Postal Service Criteria for Workplace                                   LB-AR-00-003
 Violence Prevention and Response Programs



                                 We have summarized management's comments in the
                                 report and included the full text in Appendix D of this report.

 Evaluation of                   Management’s comments are generally responsive to our
 Management’s                    recommendations and the actions, taken and planned,
 Comments                        should correct the conditions identified in this report.
                                 However, we would like to reiterate that full compliance with
                                 the entire guide is critical to an effective violence prevention
                                 program. Management also provided additional background
                                 information suggestions regarding some sections of the
                                 report. This information is included is included with their
                                 verbatim comments.




                                                      10
Evaluation of Postal Service Criteria for Workplace                          LB-AR-00-003
 Violence Prevention and Response Programs


                    APPENDIX A. POSTAL SERVICE DOCUMENTS

1. U.S. Postal Service, A Violence-Free Workplace (Publication 45), December 1998.

2. U.S. Postal Service, Crisis Management Plan for Incidents of Violence in the
   Workplace (Publication 107), May 1997.

3. U.S. Postal Service, Postal Bulletin, 21811, page 3, Joint Statement on Violence and
   Behavior in the Workplace, March 19, 1992.

4. U.S. Postal Service, Postal Life, Vol. 29, No.1, January/February 1997.

5. U.S. Postal Service, Threat Assessment Team Guide (Publication 108), May 1997.

6.	 U.S. Postal Service, Midwest Area, A Safe Workplace, My Right, My Responsibility,
    1996 Edition.




                                                      11
Evaluation of Postal Service Criteria for Workplace                          LB-AR-00-003
 Violence Prevention and Response Programs


               APPENDIX B. FEDERAL GOVERNMENT DOCUMENTS
1.	   U.S. Office of Personnel Management, Office of Workforce Relations, Dealing with
      Workplace Violence: A Guide for Agency Planners, February 1998.

2.	   U.S. Department of Health and Human Services, Understanding and Responding
      to Violence in the Workplace, HHS Guidelines, November 1996.

3.	   U.S. Department of Health and Human Services, Public Health Service, Centers
      for Disease Control and Prevention, National Institute for Occupational Safety and
      Health, Current Intelligence Bulletin 57: Violence in the Workplace: Risk Factors
      and Prevention Strategies, June 1996.

4.	   U.S. Department of Housing and Urban Development, Office of Human Resources,
      A Supervisor’s/Manager’s Guide to Dealing with Crisis in the Workplace, [no date].

5.	   Robert A. Fein and Bryan Vossekuil, U.S. Department of Justice, Office of Justice
      Programs, National Institute of Justice, Protective Intelligence Threat Assessment
      Investigations: A Guide for State and Local Law Enforcement Officials, July 1998.

6.	   Robert A. Fein, Ph.D., Bryan Vossekuil, and Gwen A. Holden, U.S. Department of
      Justice, Office of Justice Programs, National Institute of Justice, Threat
      Assessment: An Approach To Prevent Targeted Violence, July 1995.

7.	   U.S. Department of Labor, Office of the Assistant Secretary for Administration and
      Management, Responding to and Preventing Violence in the Workplace, 1997.




                                                      12
Evaluation of Postal Service Criteria for Workplace                            LB-AR-00-003
 Violence Prevention and Response Programs


                    APPENDIX C. PRIVATE SECTOR DOCUMENTS
1.	     Anthony Baron, Ph.D., Psy.D., “Workplace Violence: 12-Step Program for
        Preventing Workplace Violence,” Baron Center, Inc., 1996.
        (www.baroncenter.com/workplac.html)

2.	     Larry J. Chavez, B.A., M.P.A., “Workplace Violence: An Overview,” Critical
        Incident Associates, 1999. (www.members.aol.com/endwpv/index.html)

3.	     Judith A. Green-Slaughter, “A Strategic Plan to Prevent and Manage Workplace
        Violence,” Center for Workplace Health and Safety, Inc., October 7, 1996.
        (www.bsos.umd.edu/cesar/violence.html)

4.	     “Critical Incidents and Personal Threats Assistance,” Iowa State University,
        Department of Public Safety, last modified February 16, 1999.
        (www.1.iastate.edu/~dps_info/homepage.html)

5.	     Rebecca A. Speer, “What Employers Can Do About Workplace Violence,” The
        Law Offices of Rebecca Speer, 1997-98. (www.workplacelaw.com/todo.htm)

6.	     Jurg W. Mattman, CPP, “Preventing Violence in the Workplace,” Workplace
        Violence Research Institute, 1998.
        (www.noworkviolence.com/articles/preventing_violence.htm)

7.	     “Fact Sheet: Workplace Violence,” Transport Workers Union of America, [no
        date]. (www.twu.org/index.html)

8.	     “Violence in the Workplace Plan,” Southeastern Louisiana University, [no date].
        (www.selu.edu/police/viwp.htm)

9.	     “Workplace Violence Policy,” Medical College of Georgia, Public Safety Division,
        Administrative Polices and Procedures, No 1.6.22, March 1997.
        (www.mcg.edu/policies/1622.html)

10.	    “Guidelines for Workplace Violence Prevention Programs for Health Care
        Workers in Institutional and Community Settings,” National Security Institute,
        Draft #5, June 21,1995. (www.nsi.org/library/work/violenc1.html)

11.	    “Preventing Workplace Violence,” Parlay International, #1920, 1997.

12.	    “Occupational Violence: A Hazards Management Approach to Violence in the
        Workplace, A Focus on: Physical Violence Management Training,” [no date].
        (www.geocities.com/Colosseum/Loge/1954/occviol.htm)




                                                      13
Evaluation of Postal Service Criteria for Workplace                        LB-AR-00-003
 Violence Prevention and Response Programs


13.	    “Preventing Workplace Violence For Health Care And Social Service Workers,”
        Gilliland and Associates, Attorneys and Counselors at Law, November 29, 1997.
        (www.gilliland.com/violence.htm)

14.	    Robert Dorsey, and Rebecca A. Speer, Esq., “Workplace Violence:
        Preparedness Guide for County Employers,” 1998.
        (www.growing.com/nonviolent/protocol/wv_pgce.htm)

15.	    John Brenner and Betsy Summerfield, “Building a Workplace Violence Plan,”
        from VCCA Journal, Volume 10, Number 2, Summer 1996,31-35.
        (www.br.cc.va.us/vcca/brenn.html)

16.	    Thomas D. Harpley, Ph.D., and Paula J. Swink, CEAP, “Dealing with Violence in
        the Workplace,” Krames Communications, 1994.

17.	    Defense Personnel Security Research Center, for the Private Sector Liaison
        Committee of the International Association of Chiefs of Police, Combating
        Workplace Violence: Guidelines for Employers and Law Enforcement, [no date].




                                                      14
Evaluation of Postal Service Criteria for Workplace        LB-AR-00-003
 Violence Prevention and Response Programs


                      APPENDIX D. MANAGEMENT’S COMMENTS




                                                      15
Evaluation of Postal Service Criteria for Workplace        LB-AR-00-003
 Violence Prevention and Response Programs




                                                      16
Evaluation of Postal Service Criteria for Workplace        LB-AR-00-003
 Violence Prevention and Response Programs




                                                      17
